<html>
<title> - THE ROLE OF NUCLEAR POWER GENERATION IN A COMPREHENSIVE NATIONAL ENERGY POLICY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





THE ROLE OF NUCLEAR POWER GENERATION IN A COMPREHENSIVE NATIONAL ENERGY 
                                 POLICY

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ENERGY AND RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2005

                               __________

                           Serial No. 109-25

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______
      
              U.S. GOVERNMENT PRINTING OFFICE
21-364                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

                  Subcommittee on Energy and Resources

                 DARRELL E. ISSA, California, Chairman
LYNN A. WESTMORELAND, Georgia        DIANE E. WATSON, California
ILEANA ROS-LEHTINEN, Florida         BRIAN HIGGINS, New York
JOHN M. McHUGH, New York             TOM LANTOS, California
PATRICK T. McHENRY, North Carolina   DENNIS J. KUCINICH, Ohio
KENNY MARCHANT, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Lawrence J. Brady, Staff Director
                 Dave Solan, Professional Staff Member
                          Lori Gavaghan, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 28, 2005...................................     1
Statement of:
    Jones, Donald, vice president and senior economist, RCF 
      Economic and Financial Consulting, Inc.; Marvin Fertel, 
      senior vice president for business operations, Nuclear 
      Energy Institute; and Patrick Moore, chairman and chief 
      scientist, Greenspirit Strategies LTD......................     8
        Fertel, Marvin...........................................    17
        Jones, Donald............................................     8
        Moore, Patrick...........................................    42
Letters, statements, etc., submitted for the record by:
    Fertel, Marvin, senior vice president for business 
      operations, Nuclear Energy Institute:
        February 2005 public opinion.............................   116
        Prepared statement of....................................    22
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California:
        Constituent survey.......................................   105
        Study of University of Chicago...........................    63
        Prepared statement of....................................     3
        President Bush's remarks of April 27, 2005...............    97
    Jones, Donald, vice president and senior economist, RCF 
      Economic and Financial Consulting, Inc., prepared statement 
      of.........................................................    11
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    35
    Moore, Patrick, chairman and chief scientist, Greenspirit 
      Strategies LTD, prepared statement of......................    46
    Watson, Hon. Dianne E., a Representative in Congress from the 
      State of California, prepared statement of.................    39
    Westmoreland, Hon. Lynn A., a Representative in Congress from 
      the State of Georgia, prepared statement of................    58

 
THE ROLE OF NUCLEAR POWER GENERATION IN A COMPREHENSIVE NATIONAL ENERGY 
                                 POLICY

                              ----------                              


                        THURSDAY, APRIL 28, 2005

                  House of Representatives,
              Subcommittee on Energy and Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the subcommittee) presiding.
    Present: Representatives Issa, Westmoreland, Watson, 
Higgins, and Kucinich.
    Staff present: Larry Brady, staff director; Lori Gavaghan, 
legislative clerk; Dave Solan, Ph.D., Steve Cima, and Chase 
Huntley, professional staff members; Richard Butcher, minority 
professional staff; and Jean Gosa, minority assistant clerk.
    Mr. Issa. Good morning. My opening statement always says, 
``A quorum being present.'' It takes two for a quorum here, so 
we will skip that line. I have an opening, and I am going to 
put it in the record and be very brief. If the ranking member 
arrives before we begin testimony, that would be better. 
However, I don't want to abuse you of your time, and I 
definitely want to very much hear what you have to say and get 
to questioning. I can assure you we have had enough members 
respond that they will be here for Q&A, which seems to be the 
direction that Members prefer. So we will get to that as 
quickly as possible.
    The reason for this hearing today is that our Nation's 
electricity demand continues to rise while, in fact, production 
from nuclear sources does not. According to the Department of 
Energy, 41 new 1,000 megawatt nuclear plants will be needed by 
the year 2025 just to maintain nuclear power's 20 percent share 
of our Nation's electricity generation. However, there hasn't 
been a new nuclear power plant built in three decades. There 
are none presently licensed to be built, and without re-
licensing, or essentially extensions of their lives, a 
significant amount of capacity will go offline by 2025.
    The growth in electricity demand, coupled with the 
retirement of older generation plants, means the Nation will 
need 281 million kilowatts, to put it in kilowatt terms, of new 
generation capacity--enough to power the State of California, 
which, of course, is the world's sixth largest economy if it 
were a separate nation. I always get that into every one of my 
opening lines, as a Californian.
    I think it is important that we hear from you today about 
the role that nuclear power should play in America's future 
because we have oversight and because we are steering ourselves 
into a train wreck. And I think if there is any message that I 
would like to hear today, it would be what are the 
ramifications of our not acting. And as each of the 
distinguished individuals and I were talking about earlier, I 
think we also touched on the areas of global warming and our 
participation in it, and I hope that that will also come up.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC] [TIFF OMITTED] T1364.001
    
    [GRAPHIC] [TIFF OMITTED] T1364.002
    
    [GRAPHIC] [TIFF OMITTED] T1364.003
    
    [GRAPHIC] [TIFF OMITTED] T1364.004
    
    [GRAPHIC] [TIFF OMITTED] T1364.005
    
    Mr. Issa. Now, if I can just briefly introduce our guests. 
Donald Jones is vice president and senior economist at RCF 
Economics, a financial consulting firm in Chicago. In 2003 and 
2004, he co-directed the study at the University of Chicago on 
the economic future of nuclear power in the United States. It 
couldn't have been more timely. Marvin Fertel is senior vice 
president of business operations and chief nuclear officer at 
the Nuclear Energy Institute. Mr. Fertel has over three decades 
experience--which means you actually remember when they last 
built a nuclear power plant--in consulting through electrical 
utilities on issues related to designing, siting, licensing, 
and managing both fossil fuels and nuclear power plants.
    Last, and very important to me personally, and I thank you 
for being here, Dr. Patrick Moore has been a leader in the 
international environmental field for over 30 years. He is a 
founding member of Greenpeace and served 7 years as a director 
of Greenpeace International. In 1991, Dr. Moore founded 
Greenspirit Strategies, a consultancy focusing on environmental 
policy and communications.
    With the indulgence of the minority staff, what we will do 
is return to the ranking member's opening statement upon her 
arrival, according to the rules.
    With that, Mr. Jones, I would really appreciate if you 
would lead off.
    For all the witnesses, your testimony will be put into the 
record. And as is this policy of this committee, if I could ask 
you each to raise your hands and be sworn, if that is 
acceptable.
    [Witnesses sworn.]
    Mr. Issa. Please indicate that all have said I do. Thank 
you.
    Mr. Jones.

     STATEMENTS OF DONALD JONES, VICE PRESIDENT AND SENIOR 
ECONOMIST, RCF ECONOMIC AND FINANCIAL CONSULTING, INC.; MARVIN 
FERTEL, SENIOR VICE PRESIDENT FOR BUSINESS OPERATIONS, NUCLEAR 
    ENERGY INSTITUTE; AND PATRICK MOORE, CHAIRMAN AND CHIEF 
             SCIENTIST, GREENSPIRIT STRATEGIES LTD

                   STATEMENT OF DONALD JONES

    Mr. Jones. Good morning, Mr. Chairman, members of the 
Subcommittee on Energy and Resources of the House Committee on 
Government Reform. I am Donald W. Jones, vice president of the 
RCF Economic and Financial Consulting, an economic research 
firm in Chicago which conducts analysis of energy and 
environmental issues, as well as other economic topics. 
Together with Dr. George S. Tolley, professor emeritus of 
economics at the University of Chicago, I co-directed the 
University of Chicago study of the economic future of nuclear 
power in the United States. My comments today are based on the 
findings of that study.
    I have been asked to address the issue of policies that 
would be needed to foster the development of nuclear power and 
maintain a 20 percent nuclear share of electricity generation 
by 2020.
    Because no construction has begun on a new nuclear plant in 
the United States since 1973, a number of uncertainties 
surround the construction of the first few new plants: the 
success of the new licensing procedure, the construction time, 
and the delivered cost of the new reactor designs. Uncertainty 
in an investment raises the cost of capital to a risky project 
so as to keep the expected rate of return at a level required 
by the capital market.
    These uncertainties raise the cost of generating 
electricity from these plants above levels that would be 
competitive with electricity generated by coal- and gas-fired 
plants. Our calculations indicate that the first new nuclear 
plants could deliver electricity at costs of $53 to $71 dollars 
per megawatt hour, depending on reactor design and capital 
cost, while coal- and gas-fired plants would cost from $33 to 
$45 per megawatt hour.
    The majority of these uncertainties could be resolved after 
the construction of the first several plants, and assuming they 
are resolved satisfactorily, the nuclear costs would fall well 
within the range of fossil-generated costs by the fourth or 
fifth new plant of a given design.
    Table 1, to my right front, shows the progress of nuclear 
generation costs over the first eight plants of a reactor 
design with a capital cost of $1,500 per kilowatt of capacity. 
Learning and construction is assumed to reduce capital costs by 
3 percent for each doubling of plants built, which is a 
conservative estimate of this learning effect according to 
United States and international experience. The generation 
costs in the right-most column of the table indicate that by 
the fourth or fifth new plant of this design, generation costs 
fall to $34 to $36 per megawatt hour, which is competitive with 
fossil-fired generation costs of $33 to $45 per megawatt hour. 
The nuclear plant's cost reductions derive from pay-off of 
first-of-a-kind-engineering [FOAKE], costs borne only on the 
first plant, shortening of construction time, investors' 
gaining the confidence needed to eliminate the risk premium and 
permit higher portions of debt financing, and learning in 
manufacturing and construction.
    The first problem to be solved is getting from the first 
plant to the fourth plant. The Chicago study examined four 
financial assistance policies applied separately and in various 
combinations: a production tax credit equivalent to that 
currently offered to renewable energy development, an 
investment tax credit, accelerated depreciation, and loan 
guarantees. Table 2, to my left, reports the generation costs 
on a first plant achieved by each of these policies.
    An effective combination is a 20 percent investment tax 
credit and a production tax credit of $18 per megawatt hour for 
8 years with a cap of $125 million per plant per year. These 
would bring the cost of the first plants within the competitive 
range of coal- and gas-fired plants. Policies such as these 
should be needed only for the first four or five plants because 
of the cost reductions that can be expected after the first 
plant.
    An important policy influencing the cost of new nuclear 
plants is the Nuclear Regulatory Commission's licensing 
procedure. The new process codified in 10 CFR Part 52 permits 
resolution of many of the uncertainties surrounding the 
construction and commissioning of a new nuclear plant prior to 
the times when major financial commitments must be made. Hopes 
are high for its successful implementation, but the system 
remains to be tested.
    Several comparisons of generation costs illustrate the 
importance of this new procedure. Licensing that shortens 
construction time by 2 years and gives investors the confidence 
to reduce the risk premium on nuclear financing to the level on 
fossil-fired projects could reduce the generation cost of eight 
plants by 25 to 48 percent. Eliminating construction delays 
also has a significant effect on costs: a 2-year delay in the 
middle of a construction period would raise generation costs by 
11 percent, while a similar delay at the end of construction 
would raise costs by 23 percent. The methodology of these 
calculations is reported in detail in the published report of 
the study, the Economic Future of Nuclear Power; A Study 
Conducted at the University of Chicago, dated August 2004.
    Although it was not part of the formal study, our study 
team reviewed the subcommittee's question regarding what would 
be required to maintain the 20 percent contribution nuclear 
energy makes in meeting over electricity demand by 2020. 
According to projections of the growth of electricity 
generation capacity needed to satisfy demand growth, two to 
four new nuclear plants could need to come on line each year 
between 2015 and 2020 if the nuclear share of electricity 
generation is to remain at 20 percent.
    This could amount to a total of 15 to 24 new plants, of 
1,000 megawatts each, over a period of 6 years. One important 
point emerging from these numbers is that the number and pace 
of new plants is large enough to permit 5 to 10 percent cost 
reductions from learning by the fourth and fifth plants of a 
given type, which would be of considerable value in making 
those plants competitive.
    Thank you very much, Mr. Chairman and subcommittee members. 
This concludes my written statement, and I would be happy to 
answer any questions you might have.
    [The prepared statement of Mr. Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T1364.006
    
    [GRAPHIC] [TIFF OMITTED] T1364.007
    
    [GRAPHIC] [TIFF OMITTED] T1364.008
    
    [GRAPHIC] [TIFF OMITTED] T1364.009
    
    [GRAPHIC] [TIFF OMITTED] T1364.010
    
    [GRAPHIC] [TIFF OMITTED] T1364.011
    
    Mr. Issa. Thank you.
    Mr. Fertel.

                   STATEMENT OF MARVIN FERTEL

    Mr. Fertel. Thank you, Chairman Issa. I am Marvin Fertel. I 
am senior vice president and chief nuclear officer at the 
Nuclear Energy Institute. And on behalf of our members, I thank 
you for the opportunity to be here today.
    NEI is responsible for developing policy for the U.S. 
nuclear industry. Our organization's 270 member companies 
represent a spectrum of interests, including every U.S. energy 
company that operates a nuclear power plant.
    America's 103 nuclear power plants are right now the most 
efficient and reliable in the world. Our nuclear energy is the 
largest source of emission-free electricity in the United 
States and our second largest source of electricity overall 
after coal. Nuclear power plants in 31 States currently provide 
electricity for one of every five U.S. homes and businesses.
    Given these facts and the strategic importance of nuclear 
energy to our Nation's energy security and economic growth, NEI 
encourages Congress to maintain policies that ensure continued 
operation of our Nation's operating plants, and to provide an 
impetus required to expand emission-free nuclear energy as a 
vital part of our Nation's diverse energy mix.
    Last week, the House of Representatives demonstrated strong 
support for nuclear energy's role when it passed H.R. 6.
    This morning, I would like to address three major areas: 
first, the strategic value of nuclear power plants as a source 
of safe, reliable, and stable electricity; second, industry 
initiatives to ensure continued operation of today's nuclear 
plants; and, third, the importance of strong congressional 
oversight to ensure effective and efficient implementation of 
the Federal Government's responsibilities that affect nuclear 
energy programs.
    As I mentioned, nuclear power represents 20 percent of U.S. 
electricity power today. It did 10 years ago also. And 
basically over that period we have increased demand for 
electricity in our country by 25 percent.
    We are able to maintain our market share thanks to dramatic 
improvements in reliability, safety, and productivity of our 
current fleet of plants, which today operate at about 90 
percent capacity, which means they are on line and operating 90 
percent of the time, 24 hours a day, 365 days a year. Improved 
productivity at our plants have satisfied 20 percent of the 
growth in electricity demand over the last decade.
    Nuclear power serves a number of other important national 
needs. First, nuclear power plants contribute to the fuel and 
technology diversity that is the core strength of the U.S. 
electricity supply system. Our position is that we need 
nuclear, coal, renewables, gas, and any other source, and you 
just have to have the right mix and use them for the right 
purposes.
    Second, nuclear power plants provide future price stability 
that is not available from electric generating plants fueled, 
say, with natural gas and, in today's market, with coal. 
Intense volatility in natural gas prices over the last several 
years is likely to continue thanks partly to unsustainable 
demand for natural gas from the electric sector. Nuclear plants 
reduce the pressure on natural gas supply, thereby relieving 
cost pressures on other non-electric uses for natural gas where 
you don't have alternative fuel sources.
    Third, nuclear power plays a strategic role in meeting U.S. 
clean air goals and the Nation's goal of reducing greenhouse 
gas emissions. Without our current nuclear plants, greenhouse 
gas emissions from the electric sector would be 30 percent 
higher today. New nuclear power plants reduce electricity that 
otherwise would be supplied by oil-, gas-, or coal-fired 
generating capacity, and thus avoid the emissions associated 
with that fossil-fueled capacity.
    Overall, we believe nuclear power represents a unique value 
proposition. It provides large volumes of electricity cleanly, 
reliably and safely, and, most importantly, also affordably; it 
provides future price stability and serves as a hedge against 
price and supply volatility; and nuclear plants have valuable 
environmental attributes and they help preserve our Nation's 
energy security. These demonstrated characteristics of why 
nuclear power has such strategic importance in our overall U.S. 
energy policy.
    The 103 operating plants are valuable today. The chairman 
mentioned renewing licenses, and what I would like to say is we 
are actually making very good progress on that. Two-thirds of 
the 103 units have either renewed their license, announced they 
are going to renew their license, or are in the process of 
getting reviewed, and our expectation is that every 1 of the 
103 plants will renew their license. They are licensed for 40 
years. The NRC can renew the license for another 20 years after 
their reviews, and, to be honest, they can renew it for 20 
years after that if you wanted to do that.
    Despite the dramatic gains in reliability and productivity 
at our operating plants, there are obvious limits to how much 
additional electricity they can produce, so meeting the 
Nation's growing demand for electricity, which according to the 
Energy Information Administration will require between 230,000 
and 330,000 megawatts additional by 2025, we believe will 
require the construction of new nuclear plants in this country.
    New plants would provide Americans with low-cost, safe, and 
reliable electricity; would bring long-term price stability to 
electricity; and prevent the emission of air pollutants and 
greenhouse gases. In addition, new plant construction would 
create thousands of skilled, high-tech jobs and help us rebuild 
our manufacturing facilities in this country, which we have 
lost.
    A program of a new nuclear plant construction is absolutely 
necessary for the United States to regain its technological 
leadership in this high-tech field. The nuclear energy industry 
and the Department of Energy launched a program several years 
ago that will position the industry to build new nuclear plants 
when needed and when the business conditions are right. This is 
a comprehensive program designed to achieve the business 
issues, including licensing and regulatory issues mentioned by 
Dr. Jones, development of new plant designs and financing that 
could be roadblocks to new nuclear plant construction.
    The overall objective for this joint industry-government 
initiative is to ensure that new nuclear plants can be 
operational in the 2010 to 2020 timeframe in this country. 
Industry and government will be prepared to meet the demands 
for new emission-free base load plants in that timeframe only 
through a sustained focus on the necessary programs and 
policies between now and then.
    As it has in the past, strong congressional oversight will 
be necessary to ensure effective and efficient implementation 
of the Federal Government's nuclear energy programs, and to 
maintain America's leadership in nuclear technology development 
and its influence over other important diplomatic initiatives 
like nonproliferation.
    Nowhere is this more important than with the Department of 
Energy's program to manage the used nuclear fuel from our 
nuclear power plants.
    Continued progress toward a Federal used nuclear fuel 
repository is necessary to support nuclear energy's vital role 
in a comprehensive national energy policy.
    Since enactment of the 1982 Nuclear Waste Policy Act, DOE's 
nuclear fuel management program has overcome many challenges, 
and challenges remain before the Yucca Mountain facility can 
begin operations. But as we address these issues, it is 
important to keep the overall progress of the program in 
context.
    First, there is international scientific consensus that a 
deep geologic repository is the best solution for long-term 
disposition of any waste from any nuclear power facility, that 
is, whether you recycle it or you do a once-through fuel cycle. 
You still need a deep geologic repository.
    Second, the Bush administration and Congress, with strong 
bipartisan support, affirmed the suitability of Yucca Mountain 
for a repository in 2002. Over the past 3 years, the Energy 
Department and its contractors have made considerable progress 
providing yet greater confirmation that Yucca Mountain is an 
appropriate site.
    Third, during the past year, Federal courts have rejected 
significant legal challenges by the State of Nevada and others 
to the Nuclear Waste Policy Act and the 2002 Yucca Mountain 
suitability determination.
    In the coming year, Congress will play an essential role in 
keeping this program on schedule by taking steps necessary to 
provide increased funding for the project in fiscal year 2006 
and years beyond.
    The industry urges the Congress to support the 
administration's proposal to change the funding mechanism for 
the Yucca Mountain program so that consumer payments to the 
Nuclear Waste Fund can be used only for the project and 
excluded from traditional congressional budget caps. Although 
the program should remain subject to congressional oversight, 
Yucca Mountain appropriations should not compete each year for 
funding with unrelated programs when Congress directed a 
dedicated funding stream for the project.
    Industry also believes that it is appropriate and necessary 
to consider alternative approaches to the Yucca Mountain 
project. These alternatives could include an extended period 
for monitoring operation of the repository for up to 300 years 
or longer, other things as far as retrievability, and concepts 
like waste treatment and conditioning. What should be done is 
what is necessary to enhance safety and public confidence in 
the safety of the repository.
    Congressional oversight can also play a key role in 
maintaining and encouraging the transparency and stability of 
the Nuclear Regulatory Commission's regulatory process. Such 
stability is essential for our 103 operating nuclear plants and 
equally critical in licensing new nuclear plants.
    Congress played a key role several years ago in encouraging 
the NRC to move toward a new oversight process for the Nation's 
nuclear plants, based on quantitative performance indicators 
and safety significance. Today's reactor oversight process 
focuses industry and NRC resources on equipment, components and 
operational issues that have the greatest importance to safety.
    The need for regulatory stability is particularly acute 
today in the area of nuclear plant security.
    The NRC and the industry have worked hard to identify and 
implement new and extensive security requirements at our 
plants. In the 3\1/2\ years since September 11, the NRC has 
issued a series of requirements to increase security and 
enhance training for security programs. The industry has 
complied fully and rapidly.
    The industry has spent more than $1 billion enhancing 
security since September 11. We have identified and addressed 
potential vulnerabilities. Today, 3\1/2\ years after September 
11, the industry is at almost the practical limits of what a 
private industry can do to secure these facilities. We need to 
fully incorporate the new significant changes into our 
operations and emergency planning programs, and increase our 
proficiency in executing the programs to meet the high 
expectations of the NRC.
    Both industry and the NRC need congressional oversight to 
support and encourage this kind of stability.
    In conclusion, the public sector, including the oversight 
committees of the U.S. Congress, can help maintain the 
conditions that ensure Americans will continue to reap the 
benefits of nuclear energy in the years ahead.
    The passage of comprehensive energy legislation that 
recognizes nuclear energy's contributions to meeting our 
growing energy demands, ensuring our energy security, and 
protecting our environment is an important step.
    Equally important, however, is the need to ensure effective 
and efficient implementation of existing laws, like the Nuclear 
Waste Policy Act, and to provide Federal agencies with the 
resources and oversight necessary to discharge their statutory 
responsibilities.
    The commercial nuclear power sector was born in the United 
States, and nations around the world continue to look to the 
United States for leadership in this technology and in the 
issues associated with nuclear power. Our ability to influence 
critical international policies in areas like nuclear 
nonproliferation depend on our ability to maintain a leadership 
role in prudent deployment, use and regulation of nuclear 
energy technologies here at home, and on our ability to manage 
the technological and policy challenges, like waste management, 
that arises with all advanced technologies.
    This is a broad responsibility and, in the case of nuclear 
energy, rests equally on the shoulders of industry, government 
agencies like the Department of Energy and the Nuclear 
Regulatory Commission, and the appropriate committees of 
Congress.
    Thank you very much for the opportunity to say this.
    [The prepared statement of Mr. Fertel follows:]

    [GRAPHIC] [TIFF OMITTED] T1364.012
    
    [GRAPHIC] [TIFF OMITTED] T1364.013
    
    [GRAPHIC] [TIFF OMITTED] T1364.014
    
    [GRAPHIC] [TIFF OMITTED] T1364.015
    
    [GRAPHIC] [TIFF OMITTED] T1364.016
    
    [GRAPHIC] [TIFF OMITTED] T1364.017
    
    [GRAPHIC] [TIFF OMITTED] T1364.018
    
    [GRAPHIC] [TIFF OMITTED] T1364.019
    
    [GRAPHIC] [TIFF OMITTED] T1364.020
    
    [GRAPHIC] [TIFF OMITTED] T1364.021
    
    [GRAPHIC] [TIFF OMITTED] T1364.022
    
    [GRAPHIC] [TIFF OMITTED] T1364.023
    
    Mr. Issa. Thank you.
    And, as promised, our ranking member and others have 
arrived, so we will go to opening statements before Dr. Moore.
    I would like to recognize Representative Westmoreland from 
Georgia, who has arrived. Representative Kucinich had to 
apologize, he has left his opening statement, and it will be 
put in the record. He had another conflict and will try to 
return.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T1364.024

[GRAPHIC] [TIFF OMITTED] T1364.025

    Mr. Issa. With that, I would like to recognize our ranking 
member, Ms. Watson, for her opening remarks.
    Ms. Watson. I want to thank the Chair for holding this very 
important subcommittee hearing on the role of nuclear power. 
Most importantly, I have with me a young student. It is bring 
your daughter or son to work with you day. Megan Tarr is in the 
back. And it is important for these young people--and I have 
some interns from my office--to hear a discussion on power use 
for the future; how we can generate it, how we can care for it, 
how we can maintain it. So the subject of this hearing, the 
nuclear power generation, is a comprehensive national energy 
policy that is so essential, and I am very pleased that these 
young people will start getting themselves informed.
    No nuclear plants have been ordered in the United States 
since 1978 and more than 100 reactors have been canceled. 
However, the rising costs of electricity generated from natural 
gas and coal-fired power plants may make nuclear power and 
renewable energy sources relatively more competitive.
    It has been argued that expanded nuclear generation could 
help substitute for some of the demand for natural gas. 
Electricity is a major contributing source to the increased 
demand for natural gas. In contrast to oil, uranium, the key 
fuel source for nuclear reactors, is domestically available and 
supplies are not vulnerable to disruption by political 
instability overseas. Is this a reasonable viewpoint?
    In addition, a significant aspect of reduced fossil fuel 
consumption is a reduction in carbon dioxide emission. Nuclear 
energy does not produce substantial air pollution; therefore, 
it could help reduce air pollution problems such as smog, 
particulate matter, and global warming. The United States is 
responsible for about one-fourth of the world's total 
greenhouse gas emissions. Americans must do better. How much 
fossil fuel electric generation must be replaced to make a 
difference? Is nuclear generation the answer? I am hoping that 
we will have the input so we can continue that dialog.
    Nuclear power generation has many downsides. Nuclear power 
produces large quantities of waste that remain highly 
radioactive for thousands of years. The Nuclear Waste Policy 
Act of 1982, as amended in 1987, requires the Department of 
Energy to manage Yucca Mountain, NV, as a permanent repository 
for high-level waste.
    The United States must commit the scientific manpower and 
monetary resources needed to educate the public and provide the 
appropriate protection to the Nation's environmental and 
physical health. If the Government develops a high-level 
nuclear waste disposal site, then the proper precautions must 
be in place to safeguard the transportation of spent fuel from 
across the country and to protect the area surrounding the 
repository from radiation exposure. What is the status of Yucca 
Mountain?
    The over-arching issue of nuclear proliferation has been 
around for decades. The United Nations and other world 
organizations have been vigilant and aggressive in monitoring 
non-civil applications of nuclear energy. The United States 
should remain responsible and conscientious in this regard.
    On another thought, this is an issue regarding uranium and 
plutonium in domestic use. What about the accidents that could 
come about or a terrorist attack? The potential catastrophic 
nature of an accident at a nuclear power plant makes this a 
very serious concern and needs much debate. The last major 
accident in the United States was at Three Mile Island, 
Pennsylvania, in 1979.
    The general feeling of improved safety and acceptable 
standards in current operations is commendable. However, in 
March 2002, leaking boric acid produced a large hole in the 
nuclear reactor vessel head at the Davis-Besse nuclear plant in 
Ohio. The corrosion left only a quarter-inch-thick stainless 
steel inner liner to prevent a potentially dangerous loss of 
reactor cooling water. The Nuclear Regulatory Commission must 
hold the nuclear industry to the highest standards in order to 
prevent such problems. How safe is the industry, especially 
with no new construction in the last 30 years? These are issues 
that have to be debated.
    All commercial nuclear power plants licensed by the NRC 
have a series of physical barriers to accessing the nuclear 
reactor area and are required to maintain a trained security 
force to protect them. America presents a prime terrorist 
target on a site that contains radioactive materials. Following 
the terrorist attack of September 11, 2001, the NRC began a 
review to improve defenses against terrorist attack. What has 
been done to prevent terrorism? And is it enough?
    So, Mr. Chairman, it is very foresighted of you to call 
this hearing today, and I look forward to hearing from the rest 
of the witnesses. I am sorry I was late, but I am sure that you 
can address some of the questions that I raise. Thank you very 
much.
    [The prepared statement of Hon. Dianne E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T1364.026
    
    [GRAPHIC] [TIFF OMITTED] T1364.027
    
    [GRAPHIC] [TIFF OMITTED] T1364.028
    
    Mr. Issa. Thank you.
    And I would note that Representative Brian Higgins of New 
York has joined us, and each has said that they will 
incorporate their opening statements into the round of 
questioning.
    So with that, Dr. Moore, we look forward to hearing your 
remarks.
    And I will remind all the members, I guess for the next 
panel, too, your entire written statement will be put into the 
record, so you may use it or abbreviate it or add to it as you 
see fit. We know that your wealth of knowledge is not on that 
piece of paper, but in your years of experience.
    Thank you, Dr. Moore.

                   STATEMENT OF PATRICK MOORE

    Mr. Moore. Thank you, Mr. Chairman and members of the 
subcommittee. I am a Canadian citizen born and raised on 
Northern Vancouver Island, in a tiny fishing and logging 
village, and was sent off to boarding school in Vancouver at 
age 14, where I soon learned city ways, and ended up at the 
University of British Columbia eventually, studying the life 
sciences. I studied biology, biochemistry, genetics, forestry, 
agriculture. But then I discovered ecology, a subject that not 
many people knew about at that time, in the late 1960's, and I 
realized that I had discovered something that was going to 
change my life. And, as I put it, I became a born again 
ecologist, because it taught me how all living things are 
interrelated and how we are related to them.
    While doing my Ph.D. in ecology in 1971, I joined a small 
group of people in a church basement in Vancouver, and we 
planned a protest voyage against U.S. hydrogen bomb testing in 
Alaska. The United States was conducting underground hydrogen 
bomb tests at Amchitka Island in the Aleutians.
    We sailed a leaky old boat across the North Pacific and 
provided a focal point for media attention to opposition to the 
tests. When that H-bomb was detonated in November 1971 at 
Amchitka, it was the last hydrogen bomb the United States 
exploded. There were more atomic tests after that, but 
President Nixon, at the height of the cold war and the height 
of the Vietnam War, canceled the remaining tests in the series 
due to overwhelming public opposition. This was the birth of 
the organization Greenpeace.
    I spent the next 15 years full-time in the top committee of 
Greenpeace, as we took on campaigns around the world: against 
French atmospheric nuclear testing in the South Pacific; we 
confronted the Soviet factory whaling fleets in the North 
Pacific; we confronted the Canadian seal slaughter off the East 
Coast of Canada; we took on toxic wastes and nuclear wastes; 
and uranium mining; and kangaroo slaughtering; an amazing 
number of issues over a 15-year period, at the end of which, of 
the 15 years I was in Greenpeace, we had grown from the church 
basement to a group with $100 million a year coming in and 
offices in 21 countries. I felt we had largely accomplished our 
task by this time, the mass public awareness of the importance 
of the environment, and for me it was time to make a change. I 
had been against about three or four things every day of my 
life for 15 years. I decided I would like to be in favor of 
something for a change.
    I made the transition from the politics of confrontation, 
telling people what they should stop doing, to trying to figure 
out what we should do instead, because, after all, over 6 
billion of us wake up every morning on this planet with real 
needs for food, energy, and materials. Sustainability, which I 
believe is the next logical step after environmental activism, 
is about continuing to provide for those needs, maybe even 
getting some more things for the people in the developing 
countries, while at the same time reducing our negative 
environmental impact. I believe this is one of the most 
important points around how we move forward in continuing to 
provide our civilization with the things it needs to survive 
every day: that we can continue to have civilization and reduce 
negative impacts.
    A lot of environmental thinkers, Paul Ehrlich and his 
school of thought, they contend that automatically the more 
people there are and the more stuff they use everyday, the more 
negative impact there will be on the environment. This is not 
the case. It is possible to change the way we obtain the 
material and energy we need, while at the same time reducing 
our negative impact. That is basically the definition of 
sustainable development in many ways.
    Back in the mid-1980's, not all my former colleagues saw 
things that way as I moved into sustainability and consensus. 
Environmental extremism arose at that time for two distinct 
reasons. First, because most of the public now agreed with all 
of the reasonable things we were saying in the environmental 
movement, the only way to remain adversarial and anti-
establishment was to adopt ever-more unreasonable positions, 
eventually abandoning science and logic altogether in zero 
tolerance policies that we see today, nuclear energy being one 
of them, genetically modified foods being another one. Policies 
of zero tolerance in areas where there is actually tremendous 
potential for environmental and human welfare improvement.
    So I diverged from this approach, which ended up, in my 
estimation, with a movement that is, to a considerable extent, 
just plain anti-civilization. They are anti-globalization; they 
are basically anti-capitalist; they are anti-business, anti-
science, anti-technology. There is too many antis for me. As I 
say, I was against things for a long enough time that I wanted 
to be in favor of something.
    There is this kind of naive vision of returning to some 
kind of utopian Garden of Eden, that actually never existed in 
the first place, conveniently forgetting that just 100 years 
ago the average person's life was 35 years in this world. And 
the tremendous advances that have been made in all areas since 
then is why our life span is so much longer now, and one of 
those, of course, is in energy.
    What does environmental extremism have to do with nuclear 
energy? I believe the majority of environmental activists--and 
I would include Greenpeace, the Sierra Club, the Rainforest 
Action Network, the NRDC, and many of the others--have now 
become so blinded by their extremist policies that they fail to 
consider the enormous and obvious benefits of harnessing 
nuclear power to meet and secure America's growing energy 
needs. I believe these benefits far outweigh the risks.
    As mentioned earlier, nuclear supplies 20 percent of U.S. 
electrical energy today. If no more nuclear plants are built, 
that will be cut in half just in the next few years. And it is 
virtually certain that the only technically feasible path, if 
nuclear is not built, is greater reliance on fossil fuels than 
we have today. I can't see any analysis that shows any other 
way than that we would have more reliance on coal, oil, and 
natural gas in the future than we do today, and I believe it is 
becoming a rather untenable position even at the present time.
    In a ``business as usual'' scenario, that is, no more 
nukes, a significant reduction in greenhouse gas emissions 
would be impossible. An investment in nuclear energy could go a 
long way to reducing this reliance on fossil fuels, and could 
actually result in reduced CO<INF>2</INF> emissions.
    According to the Clean Air Council, annual fossil fuel-
fired power plant emissions are responsible for 36 percent of 
all the CO<INF>2</INF> emitted in the United States, and coal-
fired plants account for 88 percent of the CO<INF>2</INF> being 
emitted from the entire power industry.
    One of the most interesting events that is occurring now is 
that a number of prominent environmentalists are changing their 
position on nuclear energy.
    I have to say, Mr. Chairman, in my whole time in 
Greenpeace, and since then to date, over 30 years, I have never 
changed my position on a single major policy area other than 
nuclear energy. I am portrayed sometimes as someone that has 
gone over to the other side, the dark side or whatever. It is 
not as if I am advocating the resumption of hydrogen bomb 
testing or whale slaughtering. I still hold true to all the 
positions I held when I was in Greenpeace. Those positions that 
I disagree with them on today are either ones that they have 
adopted since I left, in 1986, or they are nuclear issues like 
this; it is the only one I really changed.
    But I am not the only one who is changing their opinion. 
Stewart Brand, a prominent philosopher and thinker, the founder 
of the Whole Earth Catalog that we all used as a bible when we 
went back to the land in the 1970's, has come out with a very 
important essay in the May 2005 issue of Technology Review, in 
which he says the environmental movement has to change their 
position on nuclear energy, among other things.
    My acquaintance and friend, James Lovelock, the Gaia 
theorist, has also come out saying that nuclear is the only 
solution to reducing CO<INF>2</INF> emissions. He says, 
``Civilization is in imminent danger and has to use nuclear, 
the one safe available energy source, or suffer the pain soon 
to be inflicted by our outraged planet.''
    While I might not be so strident as my friend, Lovelock, it 
is clear that whatever risk there is from increased 
CO<INF>2</INF> levels in the atmosphere--and there may be 
considerable risk--it can be offset by an emphasis on nuclear 
energy.
    Nuclear energy is a proven alternative and now provides 
over 75 percent of the U.S.' emission-free generation. The bulk 
of the other emission-free generation is hydroelectric.
    Again, back to environmental extremism. If you poll many of 
these environmental groups, including Greenpeace, you will find 
that they are against coal-fired power plants, they are against 
nuclear plants, and they are against building new hydroelectric 
projects, and are even proposing to tear some of the existing 
ones down. If you take coal, nuclear, and hydro, and add them 
together, you have nearly the whole energy supply for the 
United States. So, therefore, it is completely unrealistic to 
be against all of these things. We do have to choose winners.
    I must say, just in concluding, that even though I have 
said and have been quoted on numerous occasions, I believe 
this: ``Nuclear energy is the only non-greenhouse gas emitting 
energy source that can effectively replace fossil fuels and 
satisfy global demand.'' That said, however, I want to make it 
very clear that there should also be a much greater emphasis on 
renewable energy production.
    I believe the two most important of these, along with 
hydro, which is already established as an important source, are 
wind energy, which actually has far more potential than hydro 
on a global basis for electrical production; and ground source 
heat pumps, also known as geothermal or GeoExchange. In 
particular, when non-CO<INF>2</INF>-emitting electrical 
sources, such as wind, hydro, or nuclear, are tied with ground 
source heat pumps for heating and cooling and providing hot 
water in all of our buildings, tremendous reduction of 
CO<INF>2</INF> and fossil fuel consumption can be realized.
    A combination of nuclear, geothermal, and wind could 
actually bring the United States in line with the Kyoto 
Protocol, whether or not the United States signs that treaty.
    I think that concludes my remarks.
    Oh, just one more thing, if I may, Mr. Chairman.
    Mr. Issa. Absolutely.
    Mr. Moore. Just on the issue of accidents. It is true that 
Chernobyl was a terrible accident, but I characterize it as the 
exception that proves the rule that nuclear energy is generally 
safe. There are 434 reactors operating around the world as we 
speak. Chernobyl is the only really bad accident that has ever 
happened, and it was an accident waiting to happen. It had no 
containment structure, it was badly designed, it was badly 
operated, and badly maintained.
    And Three Mile Island, which has been mentioned, I actually 
consider a success story, because the radiation was contained 
even in the event of what was nearly the worst possible thing 
that could happen in there, which was a partial meltdown of the 
reactor core. The radiation from the core was contained in that 
reaction and did not come out like it did in Chernobyl. Of 
course, since Three Mile Island we have learned even more. So I 
don't think the safety issue is an obstacle to moving ahead.
    One other point: the nuclear proliferation point. These 
have to be taken as two separate issues, the issues of nuclear 
energy and the issues of nuclear proliferation. It is apparent 
that actually the main technologies that have resulted in the 
most combat deaths in this world in recent years are machetes, 
rifles, and car bombs. No one would seriously suggest banning 
machetes, guns, cars, or the fertilizer and diesel oil that are 
used to make the explosives in car bombs. These have to be 
looked at as separate issues; we can't simply say no nuclear 
power because the byproducts of it can be made into deadly 
weapons.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Moore follows:]

    [GRAPHIC] [TIFF OMITTED] T1364.029
    
    [GRAPHIC] [TIFF OMITTED] T1364.030
    
    [GRAPHIC] [TIFF OMITTED] T1364.031
    
    [GRAPHIC] [TIFF OMITTED] T1364.032
    
    [GRAPHIC] [TIFF OMITTED] T1364.033
    
    [GRAPHIC] [TIFF OMITTED] T1364.034
    
    [GRAPHIC] [TIFF OMITTED] T1364.035
    
    [GRAPHIC] [TIFF OMITTED] T1364.036
    
    Mr. Issa. Thank you, Dr. Moore.
    As is my policy, I will waive my opening questions until 
all the other panel members have theirs, but I will tee up the 
discussion with just two items: one, in concert with yours, Dr. 
Moore, no person in the United States has ever died in a 
civilian nuclear power accident, period, including Three Mile 
Island, which cannot be said, obviously, for everyone driving 
gasoline, oil, and all the other petrochemicals down the road; 
nor can it be said either of liquified natural gas or 
refineries, all of which have had fairly spectacular loss of 
lives over the years.
    Last, it is estimated that had the United States built all 
the nuclear power plants which were on order in the late 
1970's, when they all became canceled directly as a result of 
Three Mile Island, we would presently be in Kyoto compliance. 
And I personally strongly suggest that had we already been in 
Kyoto compliance, the willingness of Congress to ratify Kyoto 
might have been dramatically greater than when we were on a 
collision course for no such opportunity.
    With that, I would recognize the ranking member for her 
questions.
    Ms. Watson. Dr. Moore, I certainly appreciate your 
viewpoint and your input. There are several questions that come 
up in my mind. We certainly are interested in alternative 
energy power and fuels. I just returned from Qatar a few weeks 
ago, the emir told us that we have enough natural gas to 
furnish every single home in America for the next 100 years. 
And I thought if they have our natural resources, they have the 
power. And their question, the week-long that we were there, 
was we want to be treated like equals; and they were talking 
about democracy and so on and so forth.
    But what strikes me is that our energy needs rest in other 
places. So I am very interested in what we can develop as 
energy sources here that would not pollute our environment and 
destroy our planet. I believe in global warming; I have seen 
the climate change in Los Angeles, my home. We had the largest 
rainfall ever in the last few months, larger than what we have 
in a cumulative 15 years or so.
    In saying all that, I heard you speak of your background 
with Greenpeace. I think what they do is one thing; what they 
believe in is another. I don't like their tactics; I don't 
think you have to destroy to get the point over. I am hoping 
that you can share with us what they believe are other sources 
of energy, rather than the fossil fuel that we have been so 
dependent on that comes from the Middle East, where we are 
having tremendous problems at the current time, at a tremendous 
cost. What is it that we can use?
    I heard you talk about wind power and so on. I really am 
looking at nuclear energy and, as you say, it has been a real 
tsunami of a change with you, and just by the fact that I am 
saying this it is a real change with me too. But we are going 
to have to have some source of energy where we don't have to go 
change a whole nation's politics to get what we need. Then I 
look at Greenpeace, who is trying to save the environment and 
save the planet.
    What is it that you see, what is it that they see, what is 
it that we can see as sources of fuel for the future? Can you 
go into that? What are their winning proposals? I don't like 
their destructive ones. What are their winning proposals?
    Mr. Moore. Thank you. Unfortunately, one of the great 
distractions in the debate around renewable energy is the focus 
on solar voltaic panels, the solar panels that go on a roof. 
They are all show and no go in many ways. They are very techy 
looking, they give the impression that you are a green person. 
They show up because they are on top of your roof.
    Whereas, just to give a couple of facts, $20,000 invested 
in solar panels in this part of the world brings about $100 to 
$120 worth of electricity into your house per year. So you get 
a $120 return per year on a $20,000 investment. This is why 
they have to be so heavily subsidized before anybody will put 
them on the roof.
    If you invest that same $20,000 in a ground source heat 
pump for your home, you get $1,300 equivalent worth of energy. 
But it is in your basement, where nobody can see it, and the 
pipes that it uses to get the energy out of the ground are 
buried in the ground where no one can see them, so it is not a 
symbol of your commitment to renewable energy and it doesn't 
have the same appeal. It is sort of the same thing as with 
automobiles, where 90 percent of it is psychological about what 
kind of car you want to drive.
    So solar has really distracted people. I have a solar 
system in a little place I go to down in Mexico because there 
is no electricity into this little town, and it does make 
sense, when you are off the grid, to use solar energy. But it 
costs about 10 times as much as normal electrical power does; 
whereas, wind energy is now becoming reasonably close, in terms 
of competitiveness, with conventional electrical production. So 
we should be focusing on wind.
    Between the two of them, Germany and Denmark produce 50 
percent of the world's wind energy. Now, they certainly don't 
have 50 percent of the world's wind in those two little 
countries.
    Now, some people would argue that they put too much of it 
in, that it is not cost-effective, but General Electric is now 
making 5 megawatt wind turbines, individual turbines that 
produce 5 megawatts each. It doesn't take that many of them to 
start producing a substantial amount of power. And a lot of 
coal-fired generation companies are actually investing in wind 
as a way of diversifying their energy portfolio. So there is 
tremendous potential there.
    Back to ground source heat pumps. This is the key to making 
our electricity more efficient in terms of heating and cooling 
our homes, and getting rid of the peaks and valleys in our 
electrical requirements so you don't need so much base load. 
See, ground source heat pumps could heat, cool, and provide the 
hot water for every single structure in the world. You can get 
heat out of permafrost in Alaska in order to heat a building. 
This is stored solar energy that is in the top of the earth.
    Ms. Watson. How far down do you have to go?
    Mr. Moore. You put pipe in the ground 8, 10 feet deep; 
sometimes, if you drill down, you go 50 feet or more. But 
basically you put pipe in the ground, circulate water through 
it, and bring the heat of the ground into your house and 
magnify it with a heat pump. It is actually the same technology 
as is used in refrigeration and freezing. Your refrigerator is 
a heat pump. I don't know if you notice, when you put your hand 
at the back of it, there is hot air coming out of it.
    Most people don't know where that hot air is coming from, 
they think it is coming from the motor. It is actually coming 
from inside the fridge. That is how the fridge gets the heat 
out of the inside, is by pumping it out and pumping it into the 
room.
    Whereas, if you think of your house as a big fridge, with 
ground source heat pumps, you can take the heat out of the 
ground and pump it into your house, or you can take the heat 
out of your house and pump it back into the ground. It is 
available technology. Actually, many military bases are being 
retrofitted with this under the mandate for the 10-year 
payback. Lots of people are installing it, but it is nowhere 
near as large a program as it could or should be.
    And combined with nuclear energy, wind energy, hydro 
energy, and all the other non-CO<INF>2</INF>-emitting sources 
of energy, both renewables and nuclear, combined with that, we 
could cut CO<INF>2</INF> emissions by so much more than even 
Kyoto would require. And none of this is pie-in-the-sky. There 
are two factories producing over 100 million--a conglomerate. 
Two factories, one in Fort Wayne, IN, which is Water Furnace 
International, and one in Oklahoma City, Climate Master, 
producing these heat pumps on a mass scale in factories, and 
people are installing them.
    I understand President Bush and Vice President Cheney both 
have ground source heat pump systems in their homes. President 
Bush's ranch in Texas, I believe. I am told this by the heat 
pump people, so I assume it is true.
    I wish more emphasis would be put on these technologies 
which are actually feasible, rather than so much emphasis--
California nearly passed a mandate for solar panels to be 
required on all new residential construction. At least that got 
beat back. It is just a big waste of money if you are on the 
grid. There are so many other things you can do, whether it is 
insulating your home or putting in a ground source heat pump. 
There are so many better ways to invest that money--that is a 
real waste.
    Instead, California has now got, what is it, the million 
solar homes program? Now they are subsidizing putting the solar 
panels on to such an extent that people will do it. You 
practically have to buy these things for people to get them to 
want to put them on their roofs. And that is the route they are 
going, instead of going in a more cost-effective way.
    As I say, solar panels are great for niche applications 
off-grid, but I call them the world's most expensive roofing 
tiles, and I believe that is a fair description.
    Mr. Issa. Thank you.
    Ms. Watson. Thank you.
    Mr. Issa. With that, I recognize Mr. Westmoreland for his 
round of questioning.
    Mr. Westmoreland. Thank you, Mr. Chairman. I would like to 
thank you for holding this hearing. It is very timely that we 
just got through passing the energy bill.
    Let me say that, being from Georgia, we get 27 percent of 
our power from nuclear plants, and it is not near that 
percentage of the coal-fired, fossil fuel plants that we have 
in Georgia. And I hope that 1 day, starting today, that we can 
look at--because our needs are going to be great. Our economy 
is growing, our State is growing. Our needs are going to 
greatly increase, and I hope that we can look at doing some 
more nuclear facilities in Georgia.
    Mr. Chairman, I would like to submit my opening remarks, if 
I could, for the record.
    Mr. Issa. Without objection.
    [The prepared statement of Hon. Lynn A. Westmoreland 
follows:]

[GRAPHIC] [TIFF OMITTED] T1364.037

[GRAPHIC] [TIFF OMITTED] T1364.038

[GRAPHIC] [TIFF OMITTED] T1364.039

    Mr. Westmoreland. Mr. Moore, I want to compliment you for 
the things that you have said today about the nuclear power. I 
am in the building business, and I do agree with you on the 
geothermal. But I promise you that before long the 
environmentalists will be saying something about having that 
much pipe in the ground. Trust me.
    And I know we didn't want to get into a geothermal 
discussion, but you are dead on with that because of the energy 
savings, but heat pumps are becoming more and more efficient. 
You can get an 17 to 23 SAER rating now on some of those heat 
pumps.
    But the windmill, you know, they need to come up with some 
other kind of design rather than the windmill type of design, 
because I don't know that they would ever be aesthetically 
pleasing to have as many as you would need to create the 
electricity to supply a neighborhood. I understand that they 
are doing it in other countries, but I just don't know if that 
would ever be possible, at least in my area, coming from where 
I am from.
    You are dead on on the solar panels also. That was a big 
thing when we were in the building business 20 years ago, and 
it just caused a lot of roof leaks is basically what those 
solar panels caused.
    But I would like to see us look at not only this nuclear 
option, but look at doing, on a State-to-State basis--and it 
might be something for you to do--giving tax credits for people 
who will seal up and use envelope type insulation packages, 
geothermal higher SAER rating equipment to cool and heat these 
houses, because it takes a tremendous amount of energy.
    Mr. Chairman, my last comment is that I have been looking 
over the cost of these nuclear plants, but with the amount of 
demand that is going to be on electricity and the amount of 
increase it is going to take in the infrastructure of our grid 
system right now--because I think our grid systems are not in 
the best shape that they could be, as evidenced by some of the 
blackouts that we had up in the northeast--that when you look 
at the amount of work and the new grid that would have to be 
put on, I think that we are not that far out of line with the 
nuclear additions. And as you have here, as the plants that we 
build, we become more and more competitive with them.
    Also, the ranking member was talking about the safety 
aspects of it. We can learn a lot from the European countries 
as far as what they are doing, but I think our technology is so 
far advanced now from where it was when we built the original 
nuclear plants that it is definitely something we need to do, 
and I hope, by the chairman having this hearing, that we will 
not only sit here and talk about these things, but we will 
actually do something to further the building of these nuclear 
power plants.
    Thank you, Mr. Chairman.
    Mr. Issa. Thank you.
    I have good news and bad news. The good news is it is only 
one vote. The bad news is we will stand adjourned for about 15 
minutes, until we go over and come back and renew questioning. 
I know our committee structure will support any cost of coffee 
or soft drinks you would like to have while we are gone.
    With that, we stand recessed.
    [Recess.]
    Mr. Issa. One nice thing about being chairman, if you can 
be patient to get your questions in, you will get your 
questions in. I will now recognize myself for as much time as I 
will consume--there will be Members coming back here shortly--
and I have a list of them.
    First of all, Mr. Jones, would it be all right for us to 
include your entire study in the record? You have no 
objections? I would like to have it submitted in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1364.040
    
    [GRAPHIC] [TIFF OMITTED] T1364.041
    
    [GRAPHIC] [TIFF OMITTED] T1364.042
    
    [GRAPHIC] [TIFF OMITTED] T1364.043
    
    [GRAPHIC] [TIFF OMITTED] T1364.044
    
    [GRAPHIC] [TIFF OMITTED] T1364.045
    
    [GRAPHIC] [TIFF OMITTED] T1364.046
    
    [GRAPHIC] [TIFF OMITTED] T1364.047
    
    [GRAPHIC] [TIFF OMITTED] T1364.048
    
    [GRAPHIC] [TIFF OMITTED] T1364.049
    
    [GRAPHIC] [TIFF OMITTED] T1364.050
    
    [GRAPHIC] [TIFF OMITTED] T1364.051
    
    [GRAPHIC] [TIFF OMITTED] T1364.052
    
    [GRAPHIC] [TIFF OMITTED] T1364.053
    
    [GRAPHIC] [TIFF OMITTED] T1364.054
    
    [GRAPHIC] [TIFF OMITTED] T1364.055
    
    [GRAPHIC] [TIFF OMITTED] T1364.056
    
    [GRAPHIC] [TIFF OMITTED] T1364.057
    
    [GRAPHIC] [TIFF OMITTED] T1364.058
    
    [GRAPHIC] [TIFF OMITTED] T1364.059
    
    [GRAPHIC] [TIFF OMITTED] T1364.060
    
    [GRAPHIC] [TIFF OMITTED] T1364.061
    
    [GRAPHIC] [TIFF OMITTED] T1364.062
    
    [GRAPHIC] [TIFF OMITTED] T1364.063
    
    [GRAPHIC] [TIFF OMITTED] T1364.064
    
    [GRAPHIC] [TIFF OMITTED] T1364.065
    
    [GRAPHIC] [TIFF OMITTED] T1364.066
    
    [GRAPHIC] [TIFF OMITTED] T1364.067
    
    [GRAPHIC] [TIFF OMITTED] T1364.068
    
    [GRAPHIC] [TIFF OMITTED] T1364.069
    
    [GRAPHIC] [TIFF OMITTED] T1364.070
    
    [GRAPHIC] [TIFF OMITTED] T1364.071
    
    [GRAPHIC] [TIFF OMITTED] T1364.072
    
    Mr. Issa. Additionally, I would like to have yesterday's 
remarks by President Bush put in the record, since he helped 
set up our meeting with his efforts.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1364.073
    
    [GRAPHIC] [TIFF OMITTED] T1364.074
    
    [GRAPHIC] [TIFF OMITTED] T1364.075
    
    [GRAPHIC] [TIFF OMITTED] T1364.076
    
    [GRAPHIC] [TIFF OMITTED] T1364.077
    
    [GRAPHIC] [TIFF OMITTED] T1364.078
    
    Mr. Issa. I am not sure that officially we coordinated, but 
it certainly was timely.
    With that, I would like to lead off with my first question. 
And probably, Dr. Moore, I suspect I have a lot of questions 
for you, but I am going to go to our other two from the 
standpoint of equal time. You are looking a little lonely 
there. This is both for Fertel and Jones.
    The blend of financial incentives that you talked about in 
your study that is up here, the President's proposal was for 
four nuclear power plants to be funded. When I look at the 
eight, I can certainly see where you get down to eight, you are 
down to 3.2 cents per kilowatt hour, to put it in the 
ratepayer's terms, which means it is competitive with fossil 
fuel, without accounting for the advantages to zero emissions 
generation.
    It seems your study concluded that you needed to get to 
eight. Are you and the President talking essentially two 
different visions of the same thing, getting us through those 
what we used to call non-recurring expenses?
    Can you characterize where there may be common ground or 
whether there is a difference of four power plants between the 
proposals?
    Mr. Jones. Yes, sir. The President and I seem to be 
speaking off the same page. In Table 1, right here to my right, 
your left, by the time we get down to the fourth or fifth 
plant, we are well within the competitive range with fossil 
generation. So the President and the Chicago study are in 
perfect agreement on that number.
    Mr. Issa. Mr. Fertel.
    Mr. Fertel. I think, Mr. Chairman, first of all, the 
President's discussion yesterday, which we welcome--and this is 
about the fifth time since the State of the Union he has spoken 
out positively on nuclear energy, which is clearly very 
encouraging to us.
    Mr. Issa. The first time he did it timely for my hearing, 
though.
    Mr. Fertel. We thought he did it intentionally for your 
hearing. We thought you had orchestrated that, and really 
appreciated the timing.
    What the President said yesterday, he actually talked less 
incentives for these four plants than a risk insurance, which 
is something that the chief executive officers, because of the 
experience they had in the previous licensing process, have 
raised with Secretary Bodman and with the White House a number 
of times now as something that they felt was very important. 
And to be honest, if you demonstrated the licensing process 
worked on four plants--put aside the economic incentives--we 
think that you would have a track record that would give both 
the financial community and the boards of directors the 
confidence that the licensing process is disciplined.
    We are actually pretty optimistic the licensing process, as 
it is being reshaped, will be not only protective of health and 
safety, but actually pretty reasonable in how you implement it. 
But it hasn't been demonstrated. So I think that four plants 
for that is clearly a very adequate demonstration. And I think 
that as Don pointed out, we think you get pretty economic 
pretty fast these days.
    Mr. Issa. Excellent. I will also ask that a poll done in my 
own district, at government expense, which shows approximately 
80 percent of my constituents favor adding an additional 
reactor where we have two working reactors at San Onofre. And I 
will provide that in the next 5 days so it gets in the record. 
That doesn't mean that there aren't 20 percent who didn't say 
yes, but certainly I don't get 80 percent in my district, so I 
always assume it is an awfully good sign when something is more 
popular than I am.
    Sticking to our nuclear experts, per se, on production, the 
President yesterday seemed to be talking about Generation 3.5, 
and not Gen 4. Could you characterize the differences and the 
advantages? Because I think you are talking Gen 3.5 here too.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1364.079
    
    Mr. Fertel. Our current reactors, if you sort of just 
baselined them and said that the 103 operating reactors we have 
today are Gen 3, if you just took that as a baseline--and let 
me go first out to Gen 4, which is a program that the 
Department of Energy has ongoing right now, and has been 
ongoing for probably about 5 or 6 years. It is looking at both 
new advanced fuel cycles, liquid metal fuel cycles, high 
temperature gas fuel cycles, and reactors that will be 
commercial. It may vary in people's minds, but their commercial 
timing is probably in the 2030, 2040 timeframe, for really 
commercializing the reactors.
    So, for instance, our Nation is looking to move ahead in 
Gen 4 space to build a very high temperature gas reactor, 
helium being the gas that they are talking about. And it has 
some very significant advantages if you make it work right. 
First, it is a high enough temperature that you can actually 
produce hydrogen chemically with it, so it is a good source for 
producing hydrogen.
    It also is very efficient because of the high temperature, 
so rather than the 30 to 32 percent efficiency for producing 
electricity today, you might get as high as close to 50 
percent. It also has the potential, because of the way you 
would design your fuel, that you could never melt the fuel, so 
you could never have the type of accident you protect against 
from our current reactors, so it moves down that road. But that 
is a Gen 4 type reactor, and we are doing that internationally 
with other folks.
    Mr. Issa. Is it also true--I am terrible with these leading 
questions--that helium type production would also be able to be 
put completely underground?
    Mr. Fertel. Actually, the General Atomics design is below 
ground, that is true. That is true. You could design it that 
way. Or, again, you could design it aboveground, as they are 
looking at for some of what they call pebble bed reactors.
    Mr. Issa. I only ask that because obviously in our other 
hearings we are constantly dealing with the question of 
terrorism and airplanes strikes and so on.
    Mr. Fertel. The Gen 3.5 is actually--you can think of Gen 
3.5 in two types of designs that basically exist today, and in 
fact are operational in some countries. One design is what we 
call an evolutionary design; it is taking our current plants 
and moving them to where technology is right now. So I have 
gone to digital systems rather than analog systems. I have 
taken everything I have learned on my current plants and moved 
it both from a technology and operational perspective going 
forward. I have also done a bunch of things that are smarter in 
how I am going to maintain my plant for operational activities, 
so what I have learned when I have run into interferences in 
lay-down areas, I have now built it in so it is better.
    So it is an evolutionary design. It doesn't take the 
technology at all, it is still a light/water reactor design, it 
works the same as my current plants, it is just moved along in 
technology to where we are today or where we think we can be, 
and it has taken up all the lessons learned from the operation 
of current plants.
    The other Gen 3.5 that we have is we have moved to what we 
call passive designs. We call both of these advanced light/
water reactors. We did message testing and passive designs, 
which the engineers thought was great. Passive design is if I 
can move the water by gravity rather than a pump and motor, why 
don't I do that? So if I need water to get to here, rather than 
pumping it from here to here, why don't I have it flow downhill 
to that? Pretty simple.
    Mr. Issa. Meaning a pump failure is no longer a 
catastrophic failure.
    Mr. Fertel. That is right. One, I eliminate equipment, so I 
save some money because I don't need as much equipment; and, 
two, I decrease the failure modes from a safety standpoint. So 
basically you have gone to passive designs for moving water 
around or for heat convection.
    Now, I was kidding on passive, because the engineers 
thought passive was great. We did message testing with the 
public, and the public's reaction to passive was it sounded 
like it didn't do anything when it got into trouble and, oh my 
God, that sounds terrible. So we had to drop passive.
    Mr. Issa. So it is now called self-healing?
    Mr. Fertel. We will try that one. We just call it advanced. 
But that is what you have in 3.5, you have an evolutionary 
design, then you have a design that is basically trying to 
eliminate failure modes and equipment if I can do it through 
any sort of natural processes. And both of those designs right 
now are being licensed or have been licensed by the Nuclear 
Regulatory Commission. The evolutionary design is actually 
operating in Japan; they have two large General Electric 
advanced boiling water reactors operating in Japan right now.
    Mr. Issa. One followup question on that line, which is we 
are known in America for being the most eclectic nuclear 
producer; we have no two plants that you can walk into that 
look alike. And I know from safety studies that has been one of 
the problems. You train for the plant you are at because we 
built them one off in most cases. Would this 3.5 provide, if 
you will--and this is terrible to say--the airbus type cockpit, 
to where people and inspectors would have significant 
improvement in the ability to learn one, inspect, or operate 
all?
    Mr. Fertel. The very short answer is yes. The whole intent 
going forward is to sort of implement the French model, which 
is standardized families of plants, and basically say if I am 
going to build the advanced boiling water reactor or, in this 
case, the economic simplified boiling water reactor, which is 
what they are marketing in our country, you would build a 
family of those, they would be identical.
    If I were an operator at one and the chairman was an 
operator at another one, it wouldn't matter which control room 
we walked into. Same thing on maintenance, and even going down, 
if we could, we would like to keep the equipment standardized, 
to the degree we could, so that you could basically have common 
inventory and safe money on supplies.
    Your observation on our industry, which I did grow up in in 
a bit, it was sort of the American way, because in France they 
had----
    Mr. Issa. The American way before Henry Ford.
    Mr. Fertel. I mean, in France you had one electricity 
company, you had one reactor supplier, you had one fuel 
supplier, and they were all owned by the government. So when 
the government made a decision you should do something, 
everybody kind of marched to the same road. In our case, 
basically every utility wanted something slightly different 
than their brethren, and every supplier saw those as out of 
scopes. So capitalism here created a myriad of different plant 
designs.
    But, no, the answer to your question is going forward we 
are doing to go with standardized designs.
    Mr. Issa. Excellent.
    One more question that I had which was peripheral, but you 
touched on it. The 2025, 2030, 2040, about the time we want to 
be a hydrogen economy, the next generation, Gen 4, produces 
significant amounts of hydrogen. How significant is that? What 
does it really relate to from a standpoint of providing it as a 
fuel or for other industrial uses?
    Mr. Fertel. You mean as far as the nuclear role in that?
    Mr. Issa. Right. If we were to begin rolling out that next 
generation, let us just say in 2020, and ramp up to where, by 
2050, that was the standard, these more efficient, and it were 
producing our entire base load, how much hydrogen would it 
produce that theoretically is going to be used for driving 
automobiles?
    Mr. Fertel. I don't know quantitatively the answer, but 
what I can tell you is you won't use the plant for dual 
purposes, in all likelihood. You would probably build the high 
temperature gas reactors that would produce hydrogen for you, 
and you would produce high temperature gas reactors that are 
going to produce electricity.
    There may be certain times where you might be able to use 
it for a dual function, but in talking to at least the 
Department of Energy folks and the industry folks that are 
looking at it, they are saying that if you really are going to 
produce hydrogen in the quantities that you are going to need, 
you are going to dedicate the plants to doing that.
    Likewise, if you are using the plants for electricity, and 
the value of the plants for electricity would be they are 
smaller; I can build them in increments in a more competitive 
electricity market, as opposed to the large plants we build 
right now. But it sounds like you would have separate plants. 
Though they would be capable of doing both, you probably 
wouldn't build them, or at least most of them, to do both.
    Mr. Issa. Is there any other practical way to produce the 
quantity of hydrogen necessary to move our entire fleet of 
automobiles and trucks on hydrogen? Is there any other 
practical way to do it?
    Mr. Fertel. The other practical way is you are basically 
using fossil fuels to split them to get hydrogen, and then you 
are burning. It is sort of counterproductive to produce 
emissions to reduce emissions. So we don't think so. There are 
honestly people at the national labs who aren't sure that even 
using nuclear to produce hydrogen is the right thing, that is 
the answer to our problem; not the nuclear, but the hydrogen.
    But clearly in talking with folks, if we are going to 
produce large quantities of hydrogen, nuclear seems to be a way 
that we should seriously look at trying to do it, and I think 
that is why our Government has decided that the Gen 4 reactor 
they want to look at is the very high temperature, because they 
see the dual value, and that is why the Idaho folks want to see 
a reactor built there to try and begin to demonstrate its use 
in that mode.
    Mr. Issa. And, Dr. Moore, as an expert on this whole 
sustainability question, how do you see that playing, as far as 
looking, to a great extent, beyond our careers, into the 2040 
timeframe? Is this sensible or, as you were so good in pointing 
out, if not this, then what? Is there an ``or what'' that you 
can see on the horizon?
    Mr. Moore. Well, again, I haven't done the math thoroughly 
on it, but it is very obvious to me that there is no other non-
CO<INF>2</INF>-emitting form of energy that you could make that 
much hydrogen with. I mean, it would take a lot of nuclear 
plants to make enough hydrogen to replace all of the fossil 
fuel in the transport fleet.
    The other option is that hybrid technology will come in and 
be with us for 40 or 50 years before there is a change to 
another technology from that. That is another possibility. 
Another possibility is that someone will eventually invent a 
battery or electrical storage device where then you could use 
the nuclear energy to charge the vehicle directly, rather than 
having to make hydrogen.
    It is not just the making of the hydrogen that is 
technically difficult with the idea of going to a hydrogen 
fleet. Then you have to distribute it. It is very corrosive. 
Then you have to figure out how to get enough of it into an 
automobile to make it go 300 miles. And they still haven't 
figured that out yet. GM is experimenting with 10,000 psi 
tanks, and you still can't get enough in there and still have 
room for your suitcase in your car. So there are quite a few 
technical obstacles besides the manufacturing of the hydrogen.
    But once again, as with power generation, there is no other 
technology that we know of today that can make the kind of dent 
in fossil fuel reliance that we are thinking about in terms of 
both CO<INF>2</INF> emissions, air pollution, and energy 
security, reliance on offshore sources. Nothing else that I 
know of could do that.
    Actually, in the break we had a discussion about 
conservation. I know that subject was mentioned fairly high up 
in the President's speech yesterday, and, of course, that has 
to be a central part of a comprehensive energy policy. I know 
that is not what we are here to talk about today, but just to 
go on record----
    Mr. Issa. Dr. Moore, we wouldn't have invited you if we 
didn't want to be complete in dealing with nuclear versus 
alternatives, so please feel free to elaborate.
    Mr. Moore. Conservation is an across-the-board thing, it 
doesn't matter how you are producing the electricity--and in 
all other energy areas as well--it doesn't matter what your 
fuel is, the issue of conservation has to do with efficient 
use. For example, we could probably turn half the lights off in 
here, nearly all of them, and open up the curtains and conserve 
the electricity that is being used to light this room right 
now.
    Mr. Issa. They don't trust Congressmen in the dark.
    Mr. Moore. They do in the light?
    Mr. Issa. Well, forewarned is forearmed.
    Mr. Moore. But suffice it to say that conservation is a 
very important part of this whole thing, and that the United 
States is not exactly the world's leader in conservation of 
energy.
    Mr. Issa. Although I will mention that California is the 
Nation's leader in conservation of energy.
    One question I have, nuclear is a great base load because, 
as we all know, it doesn't turn on and off quickly. Geothermal 
obviously has a little more flexibility, but it is still 
inherently a base load. Wind, you get it when you get it; 
solar, you get it when you get it. If I go through all the zero 
emissions fuels, it would appear that hydro is the only large-
scale zero emissions that is demand-oriented, turns on and off 
very quickly.
    And each of you could participate in this. If nuclear were 
the answer for 100 percent of what its capacity is, how do you 
see it fitting in? What is its maximum? We always hear about 
France, for example, that believes they are at their maximum, 
which is about 80 percent. Where is the maximum for nuclear 
before you simply are in that problem that it is a base load 
only and peak has to come from some other source?
    Mr. Fertel. First of all, just to put our system in 
perspective with the French system, the amount of generation we 
have from nuclear power plants in this country, the kilowatt 
hours that keep the lights on is larger than France and the 
next largest nuclear country after them, Japan, combined. So 
going to what Patrick said, we consume a lot of electricity in 
this country.
    In France, they actually do load follow. Now, they follow a 
load, they basically are either at full capacity or they will 
go down as the load goes down. They also export a lot of 
electricity, their nuclear electricity, to make money off of it 
to other European countries.
    I think, in our country, the strength of the system 
continues to be the fact that you do have a different 
technology. I think you will always--probably not always, but 
at least in my lifetime--have combustion turbines for peaking. 
You operate them a couple percent a year. So they are there; 
they burn a lot of gas when they operate.
    I was telling Patrick during the break that if you take a 
1,000 megawatt plant--we have built 280,000 megawatts of gas 
since 1992 in this country. That is why gas is such a problem. 
And we built 14,000 megawatts of coal and nuclear since 1992. 
That gives you a perspective of what we have been doing. And if 
you take a 1,000 megawatt gas plant, combined cycle, and say it 
operates its base load, 1,000 megawatt plant uses as much gas 
as 1 percent of the Nation's residential use; 1 percent of the 
Nation's residential use. It sucks gas if you use it as a base 
load plant. But using it for peaking, it only operates a couple 
percent.
    So I think, Mr. Chairman, what you would have, at least in 
the horizon we look out at--and we support conservation and 
efficiency. We as a Nation need to do more, and prices help us 
do more in this country. Industry leads that and commercial 
follows it, and residential customers lag it. But fundamentally 
high prices will drive more conservation and efficiency.
    But I think we are going to burn coal. We are going to need 
clean coal. I mean, we have loads of coal, 250 years worth of 
coal, probably, so we will continue to do it. We have just got 
to do it smarter and begin to do less of it.
    Nuclear is 20 percent right now. If I had my druthers, we 
would grow to probably double that or more. But that is a long 
time to do, because we have 900,000 megawatts on this grid. I 
mean, it is a monster electricity system in this country. I 
mean, it is just huge. And it is sort of the lifeblood of 
everything we do in the Nation.
    So I think you are going to have, at least for the lifetime 
of most of the people we care about and know about today, you 
are going to need a mix, and you are going to still use gas, 
but you shouldn't use it for anything but peaking. And I 
wouldn't even use it for intermediate down the road because I 
think it has other more important uses in other processes.
    I think that we still need to use clean coal and I think we 
should increase renewables and we should increase nuclear.
    On renewables, I think the critical thing I mentioned to 
Patrick is you need to develop storage. Your comment on wind is 
right; you only get electricity when the wind blows. And if you 
had some storage techniques, you could have electricity longer. 
The only storage technique we could come up with was pump 
hydro, which used to be a storage technique if you looked it up 
with a hydro facility. But we don't have many new hydro 
facilities in this country. So I think you still have a mix.
    Mr. Issa. Marvin, in the energy bill there is a pump 
storage station for 500 kilowatts.
    Mr. Fertel. It is probably megawatts.
    Mr. Issa. 500 megawatts, thank you. 500 megawatts twin 
turbine in my district. It is the fourth time that I have put 
it into a bill. We are going to get there but, in fairness, the 
FERC has gone through the process and is in a preliminary 
stage. But it is one of those areas where I am very familiar 
that the 1,500 feet of rise over a very short period of time 
doesn't occur just anywhere.
    So the ability to produce it in our Lake Elcinor area is a 
pleasant opportunity. It happens to also be exactly the point 
where the southern California power outage was caused by a lack 
of about half of that much power to be available at peak. And I 
always try to make that point.
    Yes, please, Patrick.
    Mr. Moore. Just a couple points on the demand issue versus 
intermittent. One of the problems with the word geothermal, 
geothermal refers to two completely separate technologies; it 
refers to the type of geothermal you have in California, where 
you get down into deep hot vents and you are basically 
producing steam to run turbines. Iceland has a big system like 
that.
    It happened when the Department of Energy in Washington 
decided to take on ground source heat pumps, and some people 
had already started calling it geothermal or earth energy at 
that time. They didn't want to create a new department, so they 
lumped ground source heat pumps in with the geothermal 
department, so they are both called geothermal. And it was a 
big mistake in terms of public understanding, because not only 
is all this stuff happening, it is invisible; it is in your 
basement and under the ground. But now people are thinking 
geothermal, I thought that was what they do in California or 
New Zealand or Iceland.
    Mr. Issa. Noted. I am going to force myself to change. I 
will tell you that I was fortunate enough going to ANWR by 
ground vehicle at my own expense. We talked about travel 
earlier. I took my family up because I wanted to actually drive 
the Tundra and experience it and get a real feel, because it is 
a serious consideration to expand into that wildlife and 
natural refuge.
    But the strange thing is decades ago, when they were 
putting in the pipeline above ground, they were faced with the 
fact that, with heating and cooling, the pipe would have broken 
periodically, except they used ground source heat pumps, zero 
electricity consumed. I think it is ammonia-based in their 
case--don't hold me to that--but they came up with the whole 
concept that exactly when they needed cooling for the ground, 
they had a heat source in the air, and vice versa.
    So they were able to maintain the permafrost year-round on 
the Alaskan pipeline. And the environmentalists who took us on 
this trip were very proud that this was a zero outside energy 
and environmentally probably the most responsible thing that 
they could come up with, in addition to all the other success 
stories of the pipeline.
    If I can switch for a moment, one of the interesting things 
I discovered in preparing for this hearing was the old 
expression of swords into plowshares, and how that could relate 
to next generation nuclear. I have estimates that just the 
weapons grade uranium, not plutonium, that is available and 
that the Russians would be happy to sell us, would represent 
about 5 years of powering all of our nuclear power plants at 
the present time, and obviously we have the benefit of taking 
it offline.
    And then a followup--since I see Marvin going, yeah, I can 
answer this one--if we had Gen 4, which can burn plutonium--and 
General Atomics I believe is the one that has this--what would 
be your estimate of the value based on the separate plutonium 
stockpile, that is also massive?
    Mr. Fertel. In 1992 President Bush signed an agreement with 
the Russians to basically take 500 metric tons of high-enriched 
uranium that they had in warheads. This was not surplus sitting 
somewhere, which they also have, apparently, but this was 
actually coming out of warheads, so it was actually dismantling 
warheads and taking high-enriched uranium out and blending it 
down. Basically what we use in power plants is low-enriched 
uranium, which is somewhere less than 5 percent enrichment; it 
cannot blow up. High-enriched uranium for weapons is well above 
92 percent. So you blend it down, you get a lot of nuclear fuel 
out of it.
    Right now, 10 percent of the electricity in this country is 
generated as a result of weapons material in Russia being 
dismantled. We get about half the fuel for our reactors coming 
from Russia, and that has been going on now and it is going to 
go through 2013, then this particular trench of 500 metric tons 
ends.
    And the question from our industry standpoint is do we get 
another trench. We know they have much more weapons material. 
They are getting paid for this, this is actually a system where 
initially, when it started, it was probably one of the largest 
revenue sources Russia was getting. Now, they are a lot more 
commercial, they are getting money for selling gas to Europe 
and oil to others.
    But Megatons to Megawatts is a very successful program 
being implemented by USEC, which is a Maryland company here 
that used to be part of the Department of Energy, and it is a 
really good program. Now, we don't know what they will do with 
the rest of their material, whether they will sell it to us, 
whether they will use it to sell reactors to other people and 
throw it in as a fuel deal----
    Mr. Issa. Comes with a full tank of gas.
    Mr. Fertel. Comes with a full tank of gas, right. Whatever 
they can do. But we know they have a lot more stuff, and it is 
important just commercially. And I know the chairman being a 
businessman would appreciate this: on our side the industry 
that mines uranium, when you get weapons material, you are 
basically displacing uranium, you are displacing the conversion 
to make it into something else, and then the enrichment part, 
because you are getting it as a fuel, you are getting it as a 
final product.
    Mr. Issa. Kind of like emptying out Fort Knox could depress 
the gold market.
    Mr. Fertel. That is right.
    Mr. Issa. If there was anything left at Fort Knox.
    Mr. Fertel. That is right. And also, if you were emptying 
it, you probably wouldn't be mining for gold, because you would 
know that is coming on the market. Well, that is a problem for 
our side because the primary producers need to know if it is 
coming so they know what kind of production facilities they 
need to build. It is a real issue for making business 
decisions.
    On plutonium----
    Mr. Issa. Marvin, I assume, then, your message for us is we 
should be, as soon as possible making that commitment, but we 
should also recognize that we wouldn't want to provide 100 
percent for 5 years and thus lay off a whole industry.
    Mr. Fertel. To be honest, you could even do 100 percent for 
5 years in this country. I wouldn't recommend that. What you 
need for the business decisions--and, again, I am sure you 
understand this--is certainty. You need to know how much is 
coming when so that the primary producers can make business 
decisions on when they can finance stuff and build it. And we 
would advocate the sooner we could get a decision from Russia, 
the better off we as a Nation would be in not only getting rid 
of weapons material, which is certainly the primary objective, 
but in assuring adequate fuel supply.
    On plutonium, right now there is a program that the U.S. 
and Russia have agreed to to look at disposing of surplus 
weapons plutonium. And Duke Energy----
    Mr. Issa. That is the MOx program?
    Mr. Fertel. That is the MOx program.
    Mr. Issa. That is disposal, not power generation.
    Mr. Fertel. Well, it is power generation. MOx is mixed 
oxide fuel, which is mixing plutonium and uranium to make the 
fuel so that I use it in a reactor as fuel. The French use MOx 
fuel right now; the Japanese are moving to use MOx fuel. And 
what we are doing is have a deal with the Russians to get rid 
of weapons plutonium.
    And actually, I think the last 2 weeks, what we call lead 
test assemblies--which are fuel assemblies with a new fuel that 
you haven't tried so you want to put it in a reactor and you 
want to test its performance before you actually load a full 
core in the reactor--arrived at Duke's Catawba plant, and they 
are going to be testing the lead test assemblies, and if all 
goes right, they would be licensing the facility to be able to 
``use MOx fuel,'' which would be getting rid of plutonium that 
the Russians have.
    I think the bottom line, Mr. Chairman, is anything our 
country can do to help get weapons material made more benign 
and then put into reactors so you are actually getting rid of 
it is probably a very, very good thing for not only our Nation, 
but for the world, because it is getting rid of stuff that is 
not good stuff to have around. And the more we can push it, the 
more better off we would be.
    The uranium is probably a bigger problem, to be honest with 
you, than the plutonium, because there is more high-enriched 
uranium around than there is plutonium.
    Mr. Issa. And more all the time being enriched, apparently, 
over there.
    Any other comments on that round of questions?
    [No response.]
    Mr. Issa. The President, by talking about nuclear 
yesterday--and, as you said, repeatedly since the State of the 
Union--is touching on an issue in which there may not be a 
majority opposed to it, but the minority, including some of 
your old colleagues, Dr. Moore, are pretty active.
    Where do you think public opinion is on new nuclear power 
plants? I have already stated the result of a professionally 
done poll, but obviously only in a district that is familiar 
with nuclear. Where do you think public opinion is and will 
education, properly done--and I don't mean propaganda, I mean 
fair education--would it be helpful to move that to a point in 
which nuclear power would be more doable?
    And, actually, I would like to start with Dr. Moore, 
because you obviously know enough about nuclear to have very 
strong opinions on it.
    Mr. Moore. Yes. And I don't think you can count on certain 
of the environmental groups changing their minds on the 
subject. It is a winner for them, for one thing, and it is 
along the lines of many of the campaigns these days are 
unfortunately basically just scare campaigns, and this is one 
that fits very neatly into that category of just making people 
afraid, whether it is a Frankenstein foods or PCBs in their 
salmon or pesticides in their fruit, or all the other things 
where there actually isn't much of a basis to the concern, but 
it works to make people afraid. So I think you will see the 
campaigns against nuclear energy continue.
    But I think the key thing is the placement of the reactors. 
If they are placed in existing nuclear facilities, I don't 
think you are going to see sufficient opposition to stop it 
from going forward, providing everything else is in place to 
make it go forward. I don't think it will be stopped by public 
opinion. If you try and put in a greenfield nuclear facility, 
that might be a different case, because there is a whole new 
NIMBY comes into it then.
    Mr. Fertel. I agree with Patrick on it certainly being 
easier at existing sites. I had mentioned two-thirds of the 
plants have either gotten license renewal or filed for it, and 
the license renewal process involved public hearings at the 
site; and the opposition around sites is really very low. There 
is opposition at some sites, and you could probably figure out 
where that might be, but most sites you get very strong support 
because the people that work at the plant live in the area, 
they have lived there for years, they know everybody and they 
have developed credibility; and also the political environment 
around there has gotten to know the plant.
    Mr. Chairman, I have with me--just the stuff I had 
brought--a February 2005 perspective on public opinion which I 
would----
    Mr. Issa. We appreciate it. We will include it in the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1364.080
    
    [GRAPHIC] [TIFF OMITTED] T1364.081
    
    [GRAPHIC] [TIFF OMITTED] T1364.082
    
    [GRAPHIC] [TIFF OMITTED] T1364.083
    
    Mr. Fertel. It supports basically--I had not heard the San 
Onofree number that you mentioned, but we have been doing 
polling for a long time, and we ask the same questions, so you 
can either decide you like our question or you don't like our 
question, but we don't gain the question each time we ask it, 
so you sort of do get some trend. We have asked the question on 
``Do you agree or disagree we should definitely build more 
nuclear power plants?'' going back a long way, and just to show 
the public does change its mind, back in the 1998-1999 
timeframe, basically 49 percent said no and 47 percent said 
yes.
    When you are out in sort of the timeframe of the end of 
last year, what you are getting is 60 percent say yes and 34 
percent say no. You see a big switch. And that is because 
energy was on their screen for a while. Blackouts get people's 
attention; high prices for gasoline get their attention.
    Or else, to be honest, I think we, as Americans, take 
energy for granted. When we have done focus groups when energy 
isn't on the screen and you ask where electricity comes from, 
the two most dominant answers are the switch and the outlet. So 
if I wanted more energy, I used to have a slide that showed 
more switches and outlets, and that is how you got it. Now, if 
you probe a little, you do get answers, but the initial answer 
is that.
    Mr. Issa. My son once said if you want money, you can 
either earn it or go to the bank.
    Mr. Fertel. That was better than go to dad.
    Mr. Issa. I am trying to keep it that way.
    Mr. Fertel. The other question--I think it goes to what 
Patrick said on NIMBY--is since I think about 2000 we have been 
asking a question which says ``Given there was a need for more 
electricity, would it be acceptable or unacceptable to you to 
build a new nuclear power plant at a site where one exists?'' 
And what we find on that is that you are in the 60's to 70 
percent acceptable, because you have kind of dealt with NIMBY. 
If I don't have a plant near me, I can say yes, you should 
build it because it is not going to be near me, and if I do 
have a plant near me, I am probably understanding of the value 
of it.
    And I think Americans are pretty responsible when they 
understand a need. I think in the abstract we are maybe not as 
responsible. But I would put this in: I think, counterintuitive 
to what people think, there is a lot more support for nuclear 
than is generally recognized.
    Mr. Issa. Excellent. I will mention that the nuclear power 
plant does a whole lot better than existing or future airports 
in my district. For some reason, everyone does believe they can 
go somewhere else for an airport.
    I want to close with just a question that I think tees up 
the question of do we need more nuclear or not. I was born and 
raised in Ohio. Natural gas is the fuel of choice in Ohio for 
heating our homes, as it is in much of the--well, not the 
northeast, but the lands of the western reserve tend to be gas 
heavy. Ground source heat pumps are very uncommon in that area. 
Electric heat pumps are also considered to be losers, because 
electricity historically costs more than just burning natural 
gas, even if it is in 17 percent efficient furnaces.
    If natural gas continues to go up in price, then it is 
obvious. But if we just take sort of the base today, if we 
achieve 3.2 cents per kilowatt hour, high efficiency heat 
pumps, ground source heat pumps, which always tend to be 
augmented with some electricity consumption, does it represent 
a viable alternative to home heating with natural gas or other 
fossil fuels?
    Because we are looking today at a load based on the status 
quo, which is Ohio heating with natural gas and using 
electricity for lights and air conditioning. If we are looking 
at dramatically reducing our dependence on fossil fuel other 
than on mobile vehicles, which we don't have a great answer for 
today, the next greatest use obviously is the home. In various 
heating systems it varies from area.
    So I will start with Mr. Jones, if you have an answer, and 
I will finish up with Dr. Moore.
    Mr. Jones. I don't have an answer on natural gas versus 
heat pumps.
    Mr. Issa. Marvin.
    Mr. Fertel. I think that to think about answering your 
question you have to think globally. I mean, one of the things 
that we are seeing happening is China and India driving the 
price for a lot of things right now--oil, for instance; even we 
are concerned about nuclear fuel. As China builds a big 
program, they are going to tie up a lot of nuclear fuel.
    And I think as the developing nations begin to use more 
gas, as Japan uses more gas--it is all going to be LNG because 
they don't have any domestic supplies--I think what it is going 
to do is drive up the price of gas, as the rest of the world 
does their thing. And as you drive up the price for gas, what 
we are going to find is you need to go--I mean, electricity and 
gas have always had this love/hate relationship on home 
heating, and I think that it will probably begin to favor 
electricity as the gas prices go up per use worldwide. So that 
would be my guess.
    Mr. Issa. And, Dr. Moore, I must admit I teed this up for 
you primarily because it is a question of sustainability.
    Mr. Moore. Well, one way of putting it is it doesn't make 
much sense to have a 1,200 degree Fahrenheit flame in your 
basement to heat your house up to 72 degrees Fahrenheit.
    Mr. Issa. Touche.
    Mr. Moore. In other words, we are using a very high form of 
energy for what can be accomplished with low-grade energy, and 
the energy that is in the surface of the earth around and under 
your home is a low-grade energy which is there because 50 
percent of the sun's energy is absorbed by the earth, and it is 
sitting there waiting to be used; and there is 50 times as much 
energy under your house than you are ever going to need to 
heat, cool, and provide all your domestic hot water.
    So my friend David Hatherton, president of Next Energy 
Solutions in Ontario, is the largest distributor of ground 
source heat pumps in Canada. He also built with his partner the 
Fort Wayne Water Furnace International plant. And I have been 
working with Dave for over 12 years on this subject now. There 
is no doubt now that as gas prices are going up, more and more 
people are choosing to put ground source heat pumps in their 
homes. His business is growing an average of 50 percent a year 
right now, and that is reflected across the board. So high gas 
prices are good for ground source heat pumps.
    One of the reasons ground source heat pump sales have been 
centered in rural areas, and why the rural electrical co-ops 
have been very much involved with ground source heat pumps, is 
because often there is no natural gas in these rural areas and 
people are using propane and oil. And when you compare ground 
source with propane and oil, there is just no comparison; the 
ground source is more cost-effective. Compared with gas--until 
now at least, as gas prices go up and up--ground source has had 
a hard argument because the payback is so much longer, even 10 
or 12 years, and the average homeowner won't go for something 
like that.
    Now, in my estimation, this is purely an issue of human 
psychology and nothing to do with real economics, because you 
do get a payback with ground source; it does reduce your energy 
cost tremendously, because you are getting most of your energy 
now more or less for free out of the ground, and all you have 
to do is buy the electricity that you need to pump that energy 
into your house.
    For example, many of us will willingly pay $10,000 or 
$20,000 more for an automobile than we really need to in order 
to get all of the functions of an automobile, if we want a BMW, 
for example, instead of buying a Chevrolet. That happens all 
across the country everyday; hundreds of thousands of people 
making that decision, when there is absolutely no practical 
necessity for it, it is all psychological. People will pay 
$20,000, $30,000, $40,000 for a home entertainment system when 
an i-pod hooked up to a micro-stereo would do just fine.
    Mr. Issa. Especially for those of us with older hearing.
    Mr. Moore. Right. But it is hard to get people to make the 
decision to invest an extra $10,000 in their home heating, 
cooling, and hot water supply, even though that allows them to 
say I have a CO<INF>2</INF> emissions-free home. And what we 
have to do is get people to be as proud of having a 
CO<INF>2</INF> emissions-free home as they are of having a 
pretty car. And I don't know how you achieve that, whether it 
is just a fundamental problem with human psychology, but I do 
know that it has nothing to do with economics.
    Mr. Issa. Well, thank you.
    I will close by going on the record and saying that I have 
both a Lexus and a Toyota Prius. I want to appeal to both 
voters any chance I can.
    Mr. Moore. That is very political.
    Mr. Issa. Actually, I really love the Prius, it is the 
ideal car for here in Washington, DC. All kidding aside, it is 
the statement--and, Patrick, you alluded to this all 
throughout. We have to use all these sustainable alternatives, 
nuclear being the subject du jour, but no question at all that 
we can't give up on any of these.
    I look forward to having you back, if you will come back as 
we progress through this process.
    And with that, with unanimous consent, we are adjourned.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
